No. 19-583
IN THE

ESTATE OF ROBERT CUNNINGHAM; RYAN UEHLING;
OMNI HEALTHCARE INC.; AMADEO PESCE;
AND JOHN DOE A/K/A CRAIG DELIGDISH,
Petitioners,
v.
MARK MCGUIRE,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the First Circuit
PETITIONERS’ REPLY

Robert A. Griffith
GARGIULO/RUDNICK, LLP
766 Falmouth Road
Unit A-6
Mashpee, MA 02649
(617) 742-3833
John Roddy
Elizabeth Ryan
BAILEY & GLASSER LLP
99 High Street, Suite 304
Boston, MA 02110
(617) 439-6730

Tejinder Singh
Counsel of Record
Erica Oleszczuk Evans
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
tsingh@goldsteinrussell.com
Counsel for Petitioners

Counsel for Petitioner
Estate of Robert
Cunningham
[additional counsel listed on inside cover]

Joel Androphy
BERG & ANDROPHY
3704 Travis Street
Houston, TX 77002
(713) 529-5622
Counsel for Petitioner
Ryan Uehling
Mark Kleiman
KLEIMAN/RAJARAM
2907 Stanford Avenue
Venice, CA 90292
(310) 306-8094
Counsel for Petitioner
Amadeo Pesce

J. Marc Vezina
Monica P. Navarro
VEZINA LAW, PLC
18 S. Broadway Street
Suite 200
Lake Orion, MI 48362
(248) 558-2700
Counsel for Petitioners
Omni Healthcare Inc.
and John Doe a/k/a
Craig Deligdish

TABLE OF CONTENTS
TABLE OF AUTHORITIES ........................................ ii
PETITIONERS’ REPLY .............................................. 1
I.

The Question Presented Was OutcomeDeterminative Below ........................................ 2

II.

There Is a Deep Circuit Split About an
Important Question of Federal Law ................. 6

III. McGuire’s Merits Arguments Do Not
Weigh Against Certiorari ................................. 9
IV. This Case Is an Excellent Vehicle to
Resolve the Question ...................................... 10
CONCLUSION .......................................................... 12

ii
TABLE OF AUTHORITIES
Cases
Arbaugh v. Y&H Corp.,
546 U.S. 500 (2006) .............................................. 6, 7
United States ex rel. Branch Consultants v.
Allstate Ins. Co.,
560 F.3d 371 (5th Cir. 2009) .................................... 6
United States ex rel. Carter v. Halliburton Co.,
866 F.3d 199 (4th Cir. 2017) .................................... 6
United States ex rel. Duxbury v. Ortho Biotech
Prods., L.P.,
579 F.3d 13 (1st Cir. 2009) ...................................... 4
United States ex rel. Hartpence v.
Kinetic Concepts, Inc.,
792 F.3d 1121 (9th Cir. 2015) .................................. 6
United States ex rel. Lisitza v.
Johnson & Johnson,
765 F. Supp. 2d 112 (D. Mass. 2011) ....................... 4
United States ex rel. Little v.
Triumph Gear Sys., Inc.,
870 F.3d 1242 (10th Cir. 2017) ................................ 6
United States ex rel. Poteet v. Medtronic, Inc.,
552 F.3d 503 (6th Cir. 2009) .................................... 6
Statutes
31 U.S.C. § 3730(b)(5) .........................................passim
Rules
Fed. R. Civ. P. 12(b)(1)............................................. 3, 4
Fed. R. Civ. P. 12(b)(6)............................................. 3, 4

PETITIONERS’ REPLY
Respondent McGuire’s brief in opposition makes
four arguments against certiorari. Each lacks merit.
Before we address those arguments, we emphasize that McGuire mischaracterizes the question presented. Throughout his brief in opposition, McGuire
contends that the question is limited to whether 31
U.S.C. § 3730(b)(5) is jurisdictional—and has nothing
to do with the materials that a court can consider
when applying it. Not so. In full, the question presented is “whether Section 3730(b)(5) is a jurisdictional provision that permits courts to consider all of
the ‘facts underlying the pending action’ to determine
its application.” Pet. i.
As the wording makes clear, the jurisdictional nature of Section 3730(b)(5) is intertwined with its
scope—and specifically with the materials that a court
should consider to identify the “facts underlying the
pending action.” One of our strongest arguments in favor of treating the statute as jurisdictional is that such
treatment is the best way to ensure that a court considers the right materials at the right time. And as the
lower court decisions in this case illustrate, one natural consequence of treating the statute as jurisdictional (or not) is that a court will consider different
materials in applying it. The scope of the relevant materials is accordingly fairly included within the question presented.
Consequently, we expect and hope that in the
course of resolving the deep circuit split over whether
Section 3730(b)(5) is jurisdictional, the Court will determine whether a court identifying the “facts under-

2
lying the pending action” is limited to reviewing complaints or should instead review statutorily required
evidentiary disclosures, providing critical guidance to
courts and litigants alike. The Court would also certainly have the option to hold that even if Section
3730(b)(5) is not jurisdictional, the First Circuit erred
by refusing to consider Cunningham’s disclosures.
We turn now to McGuire’s arguments.
I.

The Question Presented Was
Outcome-Determinative Below.

McGuire argues that the question presented was
not important to the First Circuit’s disposition of the
case, or to the operation of Section 3730(b)(5). BIO 1521. That is wrong because the question presented was
the entire ballgame. The district court ruled in petitioners’ favor because it ruled their way on the question presented; the First Circuit reversed because it
reached the opposite conclusion about the question
presented.
Thus, the district court held that because Section
3730(b)(5) is jurisdictional, “the Court may consider
evidence extrinsic to McGuire’s complaint in resolving” which relator was first to file. Pet. App. 36a. The
court then explained that “[a]fter considering Cunningham’s complaint, first amended complaint . . . and
the documents . . . which were provided to the government prior to the filing of McGuire’s complaint, the
Court finds that Cunningham did sufficiently allege
the Covered Conduct so as to bar McGuire’s claim.” Id.
at 39a. And the court further recognized that “once
Cunningham’s submissions are considered it becomes
apparent that McGuire” was not the first to file. Id. at

3
42a-43a. The court considered those materials in adjudicating a motion under Federal Rule of Civil Procedure 12(b)(1), and therefore ruled in Cunningham’s favor—but it refused to consider them in adjudicating
Cunningham’s motion under Federal Rule of Civil Procedure 12(b)(6), and therefore denied that motion. See
Pet. App. 43a.
In reversing the district court’s decision granting
the Rule 12(b)(1) motion, the First Circuit relied on its
determination that Section 3730(b)(5) is not jurisdictional. Thus, the court of appeals explained early in its
opinion that “[b]ecause we hold that the first-to-file issue is to be addressed under Federal Rule of Civil Procedure 12(b)(6), not Rule 12(b)(1), we confine our review to the pleadings and to facts subject to judicial
notice.” Pet. App. 5a (emphasis added). In the final section of its opinion, it reiterated that in assessing
whether “McGuire is entitled to the relator’s share of
the government’s settlement with Millennium,” the
court would “confine [its] review to the pleadings and
to facts susceptible to judicial notice.” Id. at 19a-20a
(quotation marks omitted). It contrasted that approach with the district court’s decision to “analyze[]
Cunningham’s motion to dismiss as a factual challenge under Rule 12(b)(1),” noting that the district
court had “engaged its broad authority to look outside
the pleadings to determine its own jurisdiction.” Id. at
20a n.14 (quotation marks omitted).
McGuire says nothing about this critical language—i.e., the actual holdings—in the decisions below. Instead, he argues that the First Circuit cited four
cases reaching varying conclusions about whether Section 3730(b)(5) is jurisdictional, but all limiting their
analysis to the complaints in the relevant actions. BIO

4
16-17. From these citations, McGuire extrapolates
that the First Circuit would limit its analysis to the
four corners of the complaints even if it deemed Section 3730(b)(5) to be jurisdictional.
McGuire’s attempt to divine First Circuit law by
reading the tea leaves of its citations conflicts with the
explicit language of the First Circuit’s holding, which
expressly connected the determination that Section
3730(b)(5) is not jurisdictional to the scope of the inquiry: “[b]ecause we hold that the first-to-file issue is
to be addressed under Federal Rule of Civil Procedure
12(b)(6), not Rule 12(b)(1), we confine our review to the
pleadings and to facts subject to judicial notice.” Pet.
App. 5a. It is also inconsistent with prior First Circuit
precedent, which recognized “that, in reviewing a dismissal for lack of jurisdiction [under Section
3730(b)(5)], we need not confine our jurisdictional inquiry to the pleadings, but may consider those other
materials in the district court record.” United States ex
rel. Duxbury v. Ortho Biotech Prods., L.P., 579 F.3d 13,
33 (1st Cir. 2009) (quotation marks omitted). And it is
inconsistent with district court decisions in the First
Circuit, which had considered a relator’s evidentiary
disclosure statement while applying Section
3730(b)(5). See United States ex rel. Lisitza v. Johnson
& Johnson, 765 F. Supp. 2d 112, 123 (D. Mass. 2011)
(finding that even though the second relator’s claim
was the first to name a specific defendant, the first relator had referred to that defendant’s conduct in an
amended complaint and in his disclosure statement,
and citing precedent holding that “an FCA complaint
should be read in conjunction with its statutorily required disclosure statement”).

5
Based on these authorities, and on the First Circuit’s reasoning below, if this Court holds that Section
3730(b)(5) is jurisdictional, the First Circuit would not
limit its analysis to the parties’ complaints, but would
look as well to Cunningham’s evidentiary disclosure to
identify the “facts underlying” his action. McGuire
does not dispute that if Cunningham’s evidentiary disclosures are considered, Cunningham would properly
be deemed first to file, such that McGuire’s cross-claim
would fail. The question presented is accordingly outcome-determinative in this case.
At most, McGuire has articulated an alternate
ground for affirmance by pointing out that even if this
Court holds that Section 3730(b)(5) is jurisdictional, it
could also hold that the statute prohibits a court from
looking beyond the parties’ complaints. But the fact
that a respondent may have an alternative argument
for affirmance is not a reason to deny certiorari when,
as here, the lower court did not rule on that basis.
Moreover, if McGuire advances that argument at the
merits stage, it will fail. As explained in the petition
(at 21-27) and in the district court’s opinion (Pet. App.
36a-38a), McGuire’s alternative ground rests on a
flawed interpretation of the phrase “facts underlying
the pending action” and ignores relators’ statutory
duty to submit evidentiary disclosures to the government. Such a flawed merits argument does not weigh
against certiorari.

6
II.

There Is a Deep Circuit Split About
an Important Question of Federal
Law.

McGuire does not dispute that there is an
acknowledged circuit conflict over whether Section
3730(b)(5) is jurisdictional, with the majority of circuits disagreeing with the decision below. Instead, he
argues that the precedents of the five courts in the majority do not count because they are “drive-by” rulings
entitled to no weight. BIO 23 (citation omitted). He
speculates that when the majority of courts apply this
Court’s precedents, specifically Arbaugh v. Y&H
Corp., 546 U.S. 500 (2006), they will reverse themselves and conclude that Section 3730(b)(5) is not jurisdictional. BIO 22.
McGuire’s argument is implausible. Arbaugh was
decided in 2006. All five courts in the majority have
held that Section 3730(b)(5) is jurisdictional after that
date. See United States ex rel. Little v. Triumph Gear
Sys., Inc., 870 F.3d 1242, 1246 (10th Cir. 2017), cert.
denied, 138 S. Ct. 1298 (2018); United States ex rel.
Carter v. Halliburton Co., 866 F.3d 199, 203 (4th Cir.
2017), cert. denied, 138 S. Ct. 2674 (2018); United
States ex rel. Hartpence v. Kinetic Concepts, Inc., 792
F.3d 1121, 1130 (9th Cir. 2015); United States ex rel.
Branch Consultants v. Allstate Ins. Co., 560 F.3d 371,
376 (5th Cir. 2009); United States ex rel. Poteet v. Medtronic, Inc., 552 F.3d 503, 516 (6th Cir. 2009). Two of
these courts—the Fourth and the Tenth Circuits—refused requests by litigants to overrule their precedents
deeming Section 3730(b)(5) jurisdictional. See Little,
870 F.3d at 1251; Carter, 866 F.3d at 203 n.1. If

7
McGuire were correct that the circuit courts would reverse themselves en masse after Arbaugh, it should
have happened by now.
McGuire’s prediction that courts will freely ignore
their own precedents is also belied by the First Circuit’s approach in this case. Here, the First Circuit did
reverse its own precedents—but it did not do so lightly,
and it did not characterize them as “drive-by” holdings
not entitled to weight. Instead, the court acknowledged that it would “ordinarily” be “constrained by
prior panel decisions directly . . . on point,” but
changed course because it believed it had identified a
“compelling reason for believing that the former panel,
in light of new developments, would change its collective mind.” Pet. App. 15a (quotation marks omitted).
The First Circuit is perhaps uniquely well-situated to
pivot in this manner, as it has only six active (non-senior) judges—which means that a panel need only persuade a single judge to achieve a majority of the entire
court. Other courts would likely have to take the question en banc to overrule their panel holdings—and it
is highly unlikely that five courts would do so. Indeed,
respondent does not identify an instance in which so
many courts have reversed themselves.
McGuire’s argument also presumes that he is so
obviously right about the merits that no court of appeals could ever disagree with him—even in the face
of circuit precedent to the contrary. His confidence is
unwarranted. While Arbaugh and its progeny provide
an argument that Section 3730(b)(5) is not jurisdictional, there are good arguments in support of the majority view, too. We sketched out some of those arguments briefly in the petition (at 21-29), and will say
more at the merits stage. For present purposes, the

8
key point is that McGuire’s prediction of self-actualizing unanimity is implausible—which means that only
this Court can create uniformity on this important
question of federal law.
On the topic of importance, McGuire says very little. He argues that whether a rule is jurisdictional
does not matter “in most instances.” BIO 20. But he
does not answer the arguments in the petition, i.e.,
that the question is sometimes outcome-determinative
(as it was here), that jurisdictional issues bear on the
separation of powers, that jurisdictional defenses cannot be waived, that jurisdiction determines the placement of the burden of proof at the pleading stage, etc.
See Pet. 17-18. He also does not answer the argument
that in literally every False Claims Act case in which
two or more individuals may know of the fraud (hundreds of cases per year), Section 3730(b)(5) will shape
how relators draft their complaints and evidentiary
disclosures. McGuire does not dispute that the issue
arises often, but he urges the Court to await a case
“which raises questions relating to the operation of the
first-to-file bar or the propriety of the essential facts
test.” BIO 21. McGuire’s argument ignores that this is
such a case because the operation of the statute is
fairly included within the debate about its jurisdictional nature. See supra pp. 1-2. This case is uniquely
desirable because it provides an opportunity to resolve
a deep circuit split and provide essential guidance
about how an important federal statute works.

9
III.

McGuire’s Merits Arguments Do Not
Weigh Against Certiorari.

Parts III and IV of the brief in opposition are essentially merits arguments. In Part III, McGuire argues that this Court’s precedents establish that Section 3730(b)(5) is not jurisdictional because it does not
use jurisdictional language.1 In Part IV, McGuire argues that the First Circuit correctly looked only to the
complaints in this case in applying Section 3730(b)(5).
For the reasons given in the petition, McGuire’s
merits arguments are unpersuasive. The best reading
of the statute, by far, is that the phrase “facts underlying the pending action” requires a court applying
Section 3730(b)(5) to identify all of the underlying
facts, and not only the subset highlighted in the complaint—and it follows from that reading that the statute should be treated as jurisdictional because that is
the only way to ensure its proper application at the
pleading stage. Moreover, Congress acquiesced in that
interpretation when it declined to amend the statute
in 2009 and 2010, a time when every court of appeals
to have considered the question had decided that Section 3730(b)(5) was jurisdictional.
1
McGuire does not cast Part III as a merits argument. Instead, he argues that certiorari is unnecessary because this Court
has already provided sufficient guidance to determine when a
statute is jurisdictional. He then goes on to describe, under his
view of this Court’s precedents, why Section 3730(b)(5) is not jurisdictional. At its core, that is a merits argument. To the extent
McGuire is actually arguing that further guidance from this
Court is unnecessary, that argument is addressed in the split section above: if there were already enough guidance in this Court’s
decisions to resolve this question, the circuits would not be divided five to three.

10
We need not say more at this time because none
of McGuire’s merits arguments weigh against certiorari. The circuits are split, and the question presented
matters in a large number of cases. Thus, whoever is
right about the merits (of course we believe that we
are), this Court should rule in that person’s favor after
it grants certiorari.
IV.

This Case Is an Excellent Vehicle to
Resolve the Question.

McGuire asserts two vehicle problems, both of
which are illusory because neither would prevent this
Court from reaching the question presented.
First, McGuire argues that Cunningham’s claim
to the relator’s share is barred by res judicata because
Cunningham’s complaint was dismissed, and the appeal from that dismissal was not resolved before the
settlement took effect. BIO 34-35. This argument appears to have been forfeited. McGuire’s briefs before
the First Circuit do not use the phrase “res judicata,”
nor otherwise argue that Cunningham’s motion to dismiss is barred by claim preclusion. In any event,
McGuire’s argument does not suggest a vehicle problem: even if the argument were not forfeited, the Court
would not need to reach it because it is neither jurisdictional in nature nor necessarily antecedent to the
question presented.2
2

This argument is similar to, but distinct from, the argument
McGuire actually made on appeal, which was that Cunningham’s
action is not “pending” for purposes of Section 3730(b)(5) because
it had been dismissed and the appeal had not been resolved. The
district court rejected that argument (Pet. App. 35a), and the
First Circuit declined to reverse that holding. See id. at 8a n.6.

11
McGuire argues second that his own claim is a
cross-claim for declaratory judgment, and not a qui
tam claim, such that the Court would have to determine whether Section 3730(b)(5) applies to his action
in order to reach the question presented. BIO 35. The
phrasing of this argument is puzzling, as McGuire
does not go so far as to argue that Section 3730(b)(5)
does not apply to his cross-claim, or contend that this
is an alternative ground for affirmance; he merely suggests that the Court would have to decide the question.
McGuire is wrong because this separate issue is
not jurisdictional, is not logically antecedent to the
question presented, and is not encompassed within it,
either. Petitioners are not asking this Court to apply
Section 3730(b)(5) to the facts of this case and determine which relator was first to file; they are merely
asking this Court to decide whether the statute is jurisdictional, and to determine which materials a court
may consider in identifying the facts underlying a qui
tam action. Both of those determinations can be made
without deciding whether Section 3730(b)(5) applies to
cross-claims, because the answers will not vary based
on whether a cross-claim is involved.
McGuire’s argument is also strained, as the gravamen of his specific cross-claim is that he is the only
person with a valid qui tam action, and therefore the
only person entitled to the relator’s share. To prove
that, he must show that his qui tam claim is not barred

Because McGuire has not flagged his argument about the word
“pending,” that argument should be deemed waived at the merits
stage. Moreover, as explained in the petition (at 20), the argument does not create a vehicle problem, and the First Circuit can
address it on remand to the extent necessary.

12
by Section 3730(b)(5). It is unsurprising, therefore,
that the district court determined that Section
3730(b)(5) applies to the cross-claim, Pet. App. 34a35a, and the First Circuit concluded that it did not
have to reach this argument because Section
3730(b)(5) concededly applies to McGuire’s qui tam action—the validity of which determines whether his
cross-claim has merit, id. at 14a n.10.
CONCLUSION
Certiorari should be granted.

13
Respectfully submitted,
John Roddy
Elizabeth Ryan
BAILEY & GLASSER LLP
99 High Street, Suite 304
Boston, MA 02110
(617) 439-6730
Robert A. Griffith
GARGIULO/RUDNICK, LLP
766 Falmouth Road
Unit A-6
Mashpee, MA 02649
(617) 742-3833
Counsel for Petitioner
Estate of Robert
Cunningham
Joel Androphy
BERG & ANDROPHY
3704 Travis Street
Houston, TX 77002
(713) 529-5622
Counsel for Petitioner
Ryan Uehling
Mark Kleiman
KLEIMAN/RAJARAM
2907 Stanford Avenue
Venice, CA 90292
(310) 306-8094
Counsel for Petitioner
Amadeo Pesce
December 23, 2019

Tejinder Singh
Counsel of Record
Erica Oleszczuk Evans
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
tsingh@goldsteinrussell.com
Counsel for Petitioners
J. Marc Vezina
Monica P. Navarro
VEZINA LAW, PLC
18 S. Broadway Street
Suite 200
Lake Orion, MI 48362
(248) 558-2700
Counsel for Petitioners
Omni Healthcare Inc.
and John Doe a/k/a Craig
Deligdish

